                          UNITED STATES DEPARTMENT OF AGRICULTURE
                                       OFFICE OF INSPECTOR GENERAL

                                             Washington D.C. 20250




August 7, 2006

REPLY TO
ATTN OF: 88501-06-FM



"Management and Security Over USDA's Universal Telecommunications Network"

OIG reviewed the Universal Telecommunications Network (UTN) maintained by the U.S. Department of
Agriculture (USDA), Office of the Chief Information Officer (OCIO) with specific emphasis on the network
management and security. The UTN is intended to function as a new, shared corporate data network
backbone for USDA to provide its customers with secure and cost-effective telecommunication capabilities and
network support services. OIG's audit objective was to determine if OCIO effectively managed development
and implementation of UTN security controls to ensure compliance with departmental and Federal
requirements.

OIG found that OCIO implemented the UTN without sufficient security controls. This was due to the fact that
OCIO had not completed required system testing, security control testing, and certification and accreditation
(C&A) of the UTN network prior to implementation. {This report is not being publicly released
due to the sensitive security information it contains.}
